                                                        IG-02-014




AUDIT
                           NASA ACQUISITION OF SERVICES USING
REPORT                       THE FEDERAL SUPPLY SCHEDULES

                                       March 27, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CO             Contracting Officer
FAR            Federal Acquisition Regulation
FSS            Federal Supply Schedules
FY             Fiscal Year
GSA            General Services Administration
OFPP           Office of Federal Procurement Policy
PIC            Procurement Information Circular
RFQ            Request for Quotation
SBA            Small Business Administration
SOW            Statement of Work
                                                 March 27, 2002

W


TO:                A/Administrator

FROM:              W/Counsel to the Inspector General

SUBJECT:           INFORMATION: NASA Acquisition of Services Using the Federal Supply
                   Schedules
                   Report Number IG-02-014

The NASA Office of Inspector General has completed an audit of NASA Acquisition of
Services Using the Federal Supply Schedules (FSS). We found that NASA contracting
officers (CO’s) at three Centers1 could have more effectively used the FSS to acquire
services, and CO’s at the five Centers2 reviewed were not consistent in their use of the FSS
to procure similar services. Specifically, for three of the five NASA Centers, CO’s did not
consider the FSS as a source for 12 (37 percent) of 32 acquisitions of services that were
available. The 12 services, costing NASA $7.8 million, were available on the FSS. Also,
CO’s did not properly follow General Services Administration (GSA) procedures in
obtaining multiple price quotes or providing information in the Request for Quotation
(RFQ)3 or Statement of Work (SOW)4 when acquiring services through the FSS.
Specifically, for 20 FSS services acquired at the five Centers, Ames, Goddard, and
Marshall did not follow the GSA Ordering Procedures for Services for 8 (40 percent)
acquired services. The eight acquisitions were valued at $2.9 million.

Background

In fiscal year (FY) 2000, NASA awarded $9.1 billion in contracts to business firms for the
acquisition of services, supplies, and equipment, and research and development. NASA
awarded $5.1 billion (56 percent) of the $9.1 billion for services. Federal Acquisition
Regulation (FAR) Part 8, Section 8.001, establishes the “Priorities for use of Government
supply sources,” the second of which is the FSS for obtaining services.


1
  The three Centers that had not maximized use of the FSS were Johnson Space Center (Johnson), Langley Research
Center (Langley), and Marshall Space Flight Center (Marshall).
2
  During the audit, we reviewed acquisitions of services at Ames Research Center (Ames), Goddard Space Flight
Center (Goddard), Johnson, Langley, and Marshall.
3
  A request for quotation communicates Government requirements to prospective contractors and solicits proposals
or quotations from them.
4
  A statement of work is a specific description to contractors, suppliers, or vendors of the goods, services, research,
products, and other items that an agency needs to acquire.
                                                                                                                2


The FSS provide sources for a wide variety of services including, but not limited to,
document management, engineering, energy management, environmental advisory,
financial management, mail management, marketing and media, personal property
management, science, information technology, and travel. The GSA administers the FSS,
negotiates pricing, and maintains the FSS, which incorporate sources from both large and
small contractors. The GSA Ordering Procedures for Services require ordering agencies to
seek competitive quotes for services priced at an hourly rate. Further, the office ordering
the service is responsible for determining that the total price is fair and reasonable.
Additionally, GSA trains personnel, upon request, to encourage the acquisition of services
through the FSS.

Recommendations

We recommended that the Assistant Administrator for Procurement (1) direct NASA CO’s
to properly follow the FAR requirements for sources when acquiring services or to
complete a waiver in accordance with the NASA FAR Supplement when using a non-FSS
source for services that are available through the FSS, (2) require NASA Centers to obtain
training directly from GSA on the efficient and economical use of the FSS, and (3) issue a
Procurement Information Circular (PIC)5 directing NASA CO’s to follow the terms of the
GSA ordering procedures when ordering services through the FSS.

Management’s Response and OIG Evaluation

The NASA Office of Procurement concurred with the recommendations and stated that
corrective action should be completed by June 30, 2002. The Assistant Administrator did
not see the need for or relevance of the waiver-related portion of the first recommendation.
We agree that waivers relate only to mandatory sources,6 and waivers are not needed for
the acquisition of nonmandatory services from a vendor not on the FSS. We believe,
however, that NASA should encourage all CO’s to consider the FSS as a source for
services to save both time and money.

Details on the status of the recommendations are in the recommendations section of the
report.



[originial signed by]
Francis P. LaRocca



5
  A Procurement Information Circular (PIC) is used for internal dissemination of procurement-related information
and directives not suitable for inclusion in the NASA FAR Supplement.
6
  The GSA negotiates contracts for services that are used by multiple Federal agencies and identifies some of these
contracts as mandatory sources. The contracts presently identified as mandatory relate to paired city airline service,
Federal Express delivery service, and the acquisition of business cards. Those sources not identified as mandatory
are considered to be nonmandatory.
                                                                                 3


Enclosure
Final Report on Audit of NASA Acquisition of Services Using the Federal Supply
Schedules
NASA ACQUISITION OF SERVICES USING THE FEDERAL
              SUPPLY SCHEDULES
                                     March 27, 2002

W


TO:            H/Assistant Administrator for Procurement

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on the Audit of NASA Acquisition of Services Using the
               Federal Supply Schedules
               Assignment Number A-01-027-00
               Report Number IG-02-014


The subject final report is provided for your information and use. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response is
incorporated into the body of the report. The corrective actions taken or planned for all
recommendations were responsive. All recommendations will remain open for reporting
purposes until agreed-to corrective actions are completed. Please notify us when
agreed-to actions have been completed, including the extent of testing performed to
ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-5634; Mr. Tony A. Lawson, Program
Manager, at (301) 286-6524; or Mr. Walter K. Curtis, Auditor-in-Charge, at (818) 354-
9746. We appreciate the courtesies extended to the audit staff. The final report
distribution is in Appendix E.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                              2


cc:
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
ARC/Director, Ames Research Center
GSFC/Director, Goddard Space Flight Center
JSC/Acting Director, Johnson Space Center
LaRC/Director, Langley Research Center
MSFC/Director, Marshall Space Flight Center
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Use of the Federal Supply Schedules, 2

     Finding B. Following GSA Ordering Procedures for Services, 7

Appendix A – Objectives, Scope, and Methodology, 11

Appendix B – Service Contracts Acquired Outside the FSS, 13

Appendix C – Service Contracts Acquired Through the FSS, 14

Appendix D – Management’s Response, 15

Appendix E – Report Distribution, 18
                              NASA Office of Inspector General

IG-02-014                                                                                     March 27, 2002
 A-01-027-00

                             NASA Acquisition of Services Using
                               the Federal Supply Schedules

                                         Executive Summary

Background. In FY 2000, NASA awarded $9.1 billion in contracts to business firms for
the acquisition of services, supplies, and equipment, and research and development.
NASA awarded $5.1 billion (56 percent) of the $9.1 billion for services. FAR Part 8,
Section 8.001, establishes the “Priorities for use of Government supply sources,”7 the
second of which is the FSS for obtaining services.

The FSS provide sources for a wide variety of services including, but not limited to,
document management, engineering, energy management, environmental advisory,
financial management, mail management, marketing and media, personal property
management, science, information technology, and travel. The GSA administers the
FSS, negotiates pricing, and maintains the FSS, which incorporate sources from both
large and small contractors. The FSS are available to other Government agencies,
including NASA. A GSA-contracted study8 found that it takes an average of 49 days to
place an order under an FSS contract in comparison to an average of 268 days to award a
contract using the traditional method,9 a time savings of 81 percent. Upon request, GSA
trains agency personnel as part of its effort to encourage the acquisition of services
through the FSS.

The GSA established procedures that require ordering agencies to seek competitive
quotes for services priced at an hourly rate. Also, the procedures state that the office
ordering the services is responsible for considering the level of effort and mix of labor
proposed to perform specific tasks and for making a determination that the total price is
fair and reasonable.




7
  Although the title of this section addresses "Government supply sources," the section describes the acquisition of
supplies and services.
8
  In November 1998, Johnson & Johnson Associates, Inc., completed a study entitled “Impact of FAR 8.4” for the
GSA.
9
  The traditional method of contracting requires that an agency identify a need, prepare and issue a request for
quotations and supporting documentation, receive and evaluate quotations from multiple vendors, negotiate with
the vendors, and award a contract to the vendor offering the best value.
Objectives. The overall objective was to determine whether NASA had effectively used
the FSS for acquiring services. Specifically, we determined whether:

   •   NASA’s procurement practices adequately considered acquisitions of services
       from the FSS as required by FAR Part 8 and

   •   the Agency achieved maximum benefits by acquiring services from the required
       sources.

Details on our audit scope and methodology are in Appendix A.

Results of Audit. NASA can more effectively use the FSS to acquire services. As part
of the audit, we randomly reviewed 119 acquisitions of services at 5 NASA Centers with
total obligations of about $1.5 billion in FY 2000 and $1.7 billion in FY 2001. Of the
119 sampled acquisitions, NASA CO’s used the FSS to acquire 20 (63 percent) of the 32
acquisitions for services that were available through the FSS. However, we found that
CO’s had not considered the FSS as a source for the remaining 12 (37 percent)
acquisitions (Finding A). Further, for 8 (40 percent) of the 20 services that were acquired
through the FSS, the CO’s did not follow GSA’s ordering procedures with regard to
obtaining multiple price quotes or providing sufficient information on the RFQ or SOW
(Finding B). As a result, NASA had reduced assurance that it received the best value for
its contracting dollars, and additional savings may have been possible.

Recommendations. We recommended that the Assistant Administrator for Procurement
(1) direct NASA CO’s to properly follow the FAR requirements for sources when
acquiring services or to complete a waiver in accordance with the NASA FAR
Supplement when using a non-FSS source for services that are available through the FSS,
(2) require NASA Centers to obtain training directly from GSA on the efficient and
economical use of the FSS, and (3) issue a PIC directing NASA CO’s to follow the terms
of the GSA ordering procedures when ordering services through the FSS.

Management’s Response. Management concurred with all the recommendations. The
Office of Procurement will issue a PIC by June 30, 2002, that will (1) remind CO’s to
follow the FAR requirements for sources when acquiring services, (2) advise the Centers
of the availability for the GSA training, and (3) direct CO’s to follow the terms of the
GSA Ordering Procedures for Services when ordering services through the FSS. The
complete text of the response is in Appendix D. We consider management’s comments
responsive. The Assistant Administrator did not see the need for or relevance of the
waiver-related portion of the first recommendation. We agree that waivers relate only to
mandatory sources, and waivers are not needed for the acquisition of nonmandatory
services from a vendor not on the FSS. We believe, however, that NASA should
encourage all CO’s to consider the FSS as a source for services to save both time and
money.




                                            ii
Introduction

The GSA directs and manages the FSS program that provides Federal agencies with a
simplified process for obtaining commonly used commercial supplies and services at
prices associated with volume buying. In the past, the FSS covered only products, such
as office equipment; however, in 1998, GSA added services to the schedules. GSA
establishes contracts with commercial firms to provide supplies and services at stated
prices for specific periods. The FSS contain the information necessary for placing
delivery orders with schedule contractors.

To provide guidance to agencies seeking supplies and services, the GSA issued Ordering
Procedures for Services, which are a set of FSS acquisition guidelines based on dollar
thresholds. For acquisitions under the $2,500 micro-purchase threshold,10 orders are
placed directly with the contractors for the services that best meet the agency’s need. For
acquisitions over the $2,500 micro-purchase threshold and below the maximum order
threshold,11 the agency must: (1) prepare a SOW, (2) send an RFQ and the SOW to three
FSS contractors, and (3) evaluate the contractors’ quotes for the services to make a best
value selection. For acquisitions over the maximum order threshold, the agency should
seek quotes from additional contractors as well as price reductions from the FSS
contractors.

The GSA stated “The Federal Supply Schedules Program … provides continuous
competition and real time market pricing and technology. It shortens lead-times and
lowers administrative cost.” In April 1999, GSA hosted a Best Practices Conference at
which agency representatives12 cited cost savings of 10 to 60 percent (depending on the
services being acquired) by using the FSS.




10
   FAR Part 2.101, “Definitions,” defines the micro-purchase threshold as $2,500.
11
   FAR Subpart 8.404 (b)(3), “Orders exceeding the maximum order threshold” states that each FSS contract has
an established maximum order threshold. This threshold represents the point at which it is advantageous for the
ordering office to seek a price reduction by obtaining quotes from additional contractors.
12
   The representatives were from the Social Security Administration, Department of State, and Department of
Defense, as well as other agencies.
Findings and Recommendations

Finding A. Use of the Federal Supply Schedules

NASA CO’s at three Centers could have more effectively used the FSS to acquire
services, and CO’s at the five Centers reviewed were not consistent in their use of the
FSS to procure similar services. Specifically, for 3 of the 5 NASA Centers, CO’s did not
consider the FSS as a source for 12 (37 percent) of the 32 acquisitions of services that we
reviewed. The 12 services, costing NASA $7.8 million, were available on the FSS.
CO’s did not consider the FSS as a source because the CO’s had not researched the
availability of services on the FSS, believed that the nature of the services was too
sensitive, or used alternative acquisition methods.13 Further, CO’s had not been
consistently trained in the proper use of the FSS. As a result, NASA had reduced
assurance that it (1) received the best value for the services acquired or (2) completed the
acquisitions in the least amount of time. Previous studies and historical data have shown
that significant cost and time savings are achievable through use of the FSS.

FAR and NASA FAR Supplement Guidance

FAR Subpart 8.001 (a), “Priorities for use of Government supply sources,” states that
agencies shall satisfy requirements for services from or through specific sources in a
descending order of priority, the second of which is the FSS.14

FAR Subpart 8.404-3 (a), “Requests for waivers,” states:

                  When an ordering office15 that is a mandatory user16 under a schedule
                  determines that items available from the schedule will not meet its
                  specific needs, but similar items from another source will, it shall
                  submit a request for waiver to the Commissioner [of the] Federal
                  Supply Service.17

The NASA FAR Supplement Subpart 1808.404-3(a), “Requests for waivers,” states:

                  The head of the NASA office initiating the procurement request or a
                  designated representative shall furnish the NASA contracting office a




13
   Alternative acquisition methods used by CO’s included (1) competing the award, (2) incrementally funding
earlier contracts, and (3) awarding sole-source contracts.
14
   The FAR identifies the first source for services as the Committee for Purchase From People Who Are Blind or
Severely Disabled.
15
   An ordering office is the office that requires a product or service.
16
   The FSS identifies selected Executive Branch agencies as mandatory users. As a result, the FSS becomes a
mandatory source for those agencies. The Code of Federal Regulations requires all Executive agencies to comply
with the priorities for use identified in the FSS.
17
   GSA management stated that it considers the GSA Ordering Procedures for Services to be mandatory for all
agencies.


                                                      2
                   signed statement identifying the supplies or services to be purchased
                   and explaining why similar items listed in the applicable schedule18
                   will not meet the requirement.

The NASA FAR Supplement also discusses the process for reaching a decision if the
contracting office disagrees that similar items listed in the applicable schedule will meet
the requirement. However, the NASA FAR Supplement provides no further guidance on
the use and potential benefits of the FSS.

Availability of Services Through the FSS

The Center CO’s should have used the FSS for 12 (37 percent) acquisitions for services.
The acquisitions cost NASA $7.8 million and are summarized below: [Withheld per
FOIA exemption 5, 5 U.S.C. §552 (b)(5).]

     •   Nine acquisitions of services19 Marshall obtained outside of the FSS were
         available through the FSS. For seven of the nine acquisitions, the CO’s decided
         to continue with existing contractors by incrementally funding earlier contracts.
         For one of the nine acquisitions, the CO awarded a sole-source20 follow-on
         contract to the original sole-source award. The contract files did not include a
         documented exception from the initiating offices for the acquisitions of services
         from non-FSS sources or a justification for the sole-source award.21 For the one
         remaining acquisition (architectural and engineering services), the CO stated he
         did not consider the FSS because of the unique aspects of the necessary services.
         We could not identify any unique aspects of the needed architectural and
         engineering services.

     •   Two of the services Johnson acquired outside the FSS were available through the
         FSS. In one case, the CO did not acquire the services through the FSS because
         the CO obtained the services from a company that had a history of providing the
         work to Johnson, and the company was not on the FSS. Further, the contract file
         did not include a justification from the initiating office, as required by the NASA
         FAR Supplement, for the acquisition of the service from a non-FSS source. For
         the remaining acquisition, the Johnson CO had not considered the FSS as a
         potential source because the work related to a sensitive utility tunnel system at




18
   The “applicable schedule” is the specific Federal Supply Schedule for the services that the office initiating the
procurement request is seeking.
19
   These services included architectural and engineering services, data processing, and management support
services.
20
   FAR Part 2.101, “Definitions,” defines a "sole-source acquisition" as “a contract for the purchase of supplies or
services that is entered into or proposed to be entered into by an agency after soliciting and negotiating with only
one source.”
21
   FAR Part 6.302-5, “Circumstances permitting other than full and open competition” requires a written
justification when an agency awards a sole-source contract.


                                                         3
            the Center. While maintenance services were available through the FSS, the CO
            had not considered the FSS because of the sensitivity of the location. The
            contract file did not include a discussion of the sensitivity of the tunnel system
            location or an exception for the acquisition of the service from a non-FSS source.

       •    One of the services Langley acquired outside of the FSS was for support services
            that were available through the FSS. The Langley CO did not check the FSS as a
            potential source, but instead, conducted a competition for the service. The
            contract file did not include documented exceptions from the initiating office for
            the acquisition of the services from a non-FSS source. The acquisition took 90
            days from the date the CO issued the RFQ to contract award.

Inconsistent Center Use of the FSS

The five Centers did not consistently select the FSS to procure similar services. CO's at
Goddard and Marshall acquired automatic data processing and telecommunications
services and professional, administrative, and management support services through the
FSS, while other CO’s at the same Centers acquired the same type of services from non-
FSS vendors. CO's either had not researched the availability of services on the FSS or
did not consider the FSS because they believed the nature of the services was too
sensitive.22

Waivers for Non-FSS Sources

CO’s did not obtain waivers when non-FSS sources were used. The FAR explicitly
states that the FSS is the second priority source for obtaining services. The NASA FAR
Supplement states that the office initiating an acquisition request shall furnish a waiver
when the FSS cannot be used. NASA should direct its CO’s to follow the requirements
of the FAR and NASA FAR Supplement with regards to using the FSS when acquiring
services.

Availability of FSS Training

To encourage agencies to use the FSS to acquire services, the GSA provides training to
contracting personnel in the use of the FSS and has issued Ordering Procedures for
Services. The GSA expects all Federal agencies to use these procedures, which are
available on the Internet. At the request of the Center management, the GSA provided
training to the contracting staff at Marshall.23 The other four Centers reviewed had not




22
     We did not find any evidence in the contract files that the services were sensitive.
23
     GSA provided training to Marshall CO’s in February 2001.


                                                         4
requested the training. NASA should pursue this training for all Agency CO’s involved
in the acquisition of services.

Saving Resources by Using the FSS

Because CO’s did not take advantage of the services available through the pre-negotiated
contracts in the FSS, NASA had reduced assurance that it received the best value in terms
of scope of services and costs for its acquisitions of services. In addition, NASA
contracting personnel unnecessarily expended time and budget resources in evaluating
potential service providers when GSA had already accomplished the evaluations prior to
awarding its FSS contracts.

At the GSA Best Practices Conference in April 1999, a representative of the Social
Security Administration cited cost savings of 10 to 60 percent through the use of the
pre-negotiated contracts. A study24 of elapsed time savings at eight Executive Branch
agencies conducted for the GSA in November 1998 reported an average of 49 days to
place an order against an existing GSA contract (such as an FSS contract) compared to an
average of 268 days to place an order under a non-GSA contract. The difference
represents a time savings of more than 80 percent.

Based on the savings experienced by other agencies, we believe that time and monetary
savings are also possible for NASA through more extensive use of the FSS. NASA
should take prompt action to ensure increased use of the FSS.

Recommendations, Management’s Response, and Evaluation of
Response

The Assistant Administrator for Procurement should:

     1. Direct NASA CO’s to properly follow the FAR requirements for sources
        when acquiring services or to complete a waiver in accordance with the
        NASA FAR Supplement when using a non-FSS source for services that are
        available through the FSS.

Management’s Response. Concur. The Office of Procurement agreed to issue a PIC to
remind CO’s to follow the FAR requirements for sources when acquiring services. The
expected completion date for this corrective action is June 30, 2002. The Assistant
Administrator for Procurement did not see the need for or relevance of the waiver-related
portion of the recommendation. Section 1808.404-3 of the NASA FAR Supplement
addresses requests for waivers when acquiring certain services from non-FSS sources,




24
  Johnson & Johnson Associates, Inc., completed the study, entitled “Impact of FAR 8.4 Comparative Analysis
of Customer Elapsed-Time Savings” on November 13, 1998.


                                                     5
but is limited to ordering offices that are mandatory users. The section implements section
8.404-3 of the FAR, which states “[w]hen an ordering office that is a mandatory user
under a schedule determines that items available from the schedule will not meet its
specific needs, but similar items from another source will, it shall submit a request for
waiver….” Currently, only three contracts are mandatory under the FSS. NASA CO’s
do not negotiate awards for two of those contracts. The third mandatory contract relates
to business cards, which NASA purchases from the GSA mandatory schedule.
Additionally, management responded that the audit did not identify any instances of CO’s
not providing waivers when such waivers were required for the three sources NASA
considers mandatory. See Appendix D for the complete text of management’s comments.

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

Regarding the benefits available through the use of the FSS, NASA is limiting its ability
to more effectively use the FSS by focusing its comments only on the three mandatory
contracts. The FSS provides sources for a wide variety of services and allows agencies to
shorten lead times and lower administrative costs. NASA contracting personnel
unnecessarily expended time and budget resources in evaluating potential service
providers when GSA had already accomplished the evaluations prior to awarding its FSS
contracts. NASA can increase assurance that it received the best value in terms of scope
of service and costs for its acquisition of services by emphasizing use of the FSS for any
service, mandatory or nonmandatory, where possible.

GSA management told us that all agencies are expected to use the FSS, which according
to the FAR is the second priority source for obtaining services. Some NASA CO’s did
not even consider the FSS as a source for services, while other NASA CO’s used the FSS
to acquire 20 of 32 nonmandatory services in our sample. We believe this use of the FSS
resulted in a savings of time and money for NASA.

The Assistant Administrator's comments clarify NASA's position on when waivers are
required, but the Agency still needs to encourage CO’s to acquire services through the
FSS. The PIC should emphasize that CO's should acquire services through the FSS
wherever possible whether the service is or is not obtained from a mandatory source.
The CO's at 3 NASA Centers should have considered the FSS as a source for 12
acquisitions of services. Other Federal agencies have experienced time and monetary
savings by acquiring services through the FSS. NASA CO's could also experience
similar savings and would be exercising good business sense by acquiring services
through the FSS, where possible.




                                            6
   2. Request NASA Centers to obtain training directly from GSA on the efficient
      and economical use of the FSS.

Management’s Response. Concur. The Office of Procurement will advise the Centers
of the availability for the GSA training. This information will be included in the PIC that
is to be issued by June 30, 2002 (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                             7
Finding B. Following GSA Ordering Procedures for Services

CO’s did not properly follow GSA procedures in obtaining multiple price quotes or
providing information in the RFQ or SOW when acquiring services through the FSS.
Specifically, for 20 FSS services acquired at the 5 Centers, Ames, Goddard, and Marshall
did not follow the GSA Ordering Procedures for Services for 8 (40 percent) acquired
services. The eight acquisitions were valued at $2.9 million. The CO’s did not follow
procedures because they either had not been trained in using the procedures or made
intentional decisions to use a specific vendor. As a result, NASA had reduced assurance
that it received the best value for the services acquired.

GSA Ordering Procedures for Services

The GSA Ordering Procedures for Services in support of FAR Part 8.402 state:

               …[t]he request [for quote] should be provided to three (3) contractors
               if the proposed order is estimated to exceed the micro-purchase
               threshold [$2,500], but not exceed the maximum order threshold [a
               variable threshold]. … Ordering offices should strive to minimize the
               contractors' costs associated with responding to requests for quotes for
               specific orders. Requests should be tailored to the minimum level
               necessary for adequate evaluation and selection for order placement.
               Oral presentations should be considered, when possible.

The Ordering Procedures for Services also state:

               …[t]he request [for quote] shall notify the contractors what basis will
               be used for selecting the contractor to receive the order. The notice
               shall include the basis for determining whether the contractors are
               technically qualified and provide an explanation regarding the intended
               use of any experience and/or past performance information in
               determining technical qualification of responses.

The Ordering Procedures for Services require a SOW that outlines, at a minimum, the
work to be performed, location of work, period of performance, deliverable schedule,
applicable standards, acceptance criteria, and any special requirements (that is, security
clearances, travel, special knowledge, etc.).

Following Ordering Procedures for Services

NASA CO’s at the three Centers did not consistently follow the GSA Ordering
Procedures for Services when acquiring services through the FSS. As shown in the table
that follows, the CO’s did not follow the GSA’s Ordering Procedures for Services for 8
(40 percent) of the 20 acquisitions of services: [Withheld per FOIA exemption 5, 5
U.S.C. §552 (b)(5).]




                                                  7
                        Use of Ordering Procedures for Services

                                                                  GSA Ordering
                                   Services Acquired           Procedures Properly
            Location                 Through FSS                    Followed

                                                                Yes             No

            Ames                             2                    1              1
            Goddard                          4                    1              3
            Johnson                          4                    4              0
            Langley                          6                    6              0
            Marshall*                        4                    0              4

            Total                           20                  12               8
        *
         The four sampled FSS acquisitions at Marshall occurred before GSA provided training in
        February 2001 for Marshall CO’s on the use of the FSS.

CO’s at Ames, Goddard, and Marshall did not request quotes from at least three vendors
or did not provide the required specifics in the RFQ or the SOW. The following are
examples of ways in which procedures were not followed:

   •   A CO at Ames did not request quotes from three vendors but instead acquired
       critical engineering services from a contractor through the FSS, using a
       sole-source justification for unusual and compelling urgency. To test the
       reasonableness of the rates of the contractor that provided the services, the CO
       documented in the contract files the rates of a different contractor who also
       offered engineering services through the FSS. However, the CO did not offer the
       second contractor a chance to provide a quote for the work and did not request
       quotes from other vendors. A comparison of rates in this manner does not ensure
       best value because the comparison does not adequately consider other factors
       such as labor mix and number of hours.

   •   A CO at Goddard [selected a contractor through the FSS for professional
       secretarial services because the contractor had provided the same services in the
       past. However, the CO did not request quotes from at least three vendors as
       required by the Ordering Procedures for Services. Therefore, NASA did not have
       assurance that the CO obtained the best value.

   •   In another case at Goddard, the ordering office prepared a SOW for automatic
       data processing and telecommunications services for a specific FSS vendor. The
       CO did not request quotes from at least three vendors. The CO intended to
       acquire services from the particular vendor using a sole-source justification. In




                                                 8
    addition, the purchase request, which serves as the basis for the RFQ, was dated
    December 18, 1998, 5 days after a proposal was received from the vendor on
    December 13, 1998. Further, the sole-source justification was dated
    December 28, 1998, 10 days after the purchase request. For a sole-source
    acquisition of services, the FAR requires that the ordering office prepare a sole-
    source justification, a purchase request, and an SOW. The NASA CO then
    prepares an RFQ, which includes an SOW. After NASA issues the RFQ, the
    vendor submits either a quotation or proposal.

•   In a third case at Goddard, an SOW involving automatic data processing and
    telecommunications services did not provide the specific information required by
    the GSA ordering procedures. The SOW included only a list of the line items of
    the required services and did not include other information such as the work to be
    performed, location of work, period of performance, deliverable schedule,
    applicable standards, acceptance criteria, and any special requirements (that is,
    security clearances, travel, special knowledge, etc.).

•   At Marshall, two FSS contracts were awarded to vendors based on the requestors'
    sole-source justifications. One of the contracts was for special studies and
    analyses, and the other was for professional, administrative, and management
    services. The CO accepted the sole-source justifications and made no efforts to
    obtain three quotes (as required by the ordering procedures) even though the
    services were readily available through the FSS.

•   In another case at Marshall, a CO initially sent an RFQ to one contractor (not to
    three as required by the ordering procedures) that had been specifically identified
    by the office requesting the automatic data processing and telecommunications
    services. The CO granted the contractor additional time to respond to the RFQ
    because of a holiday. The CO also modified the terms of the RFQ based on
    discussions between the requestor and the vendor. Subsequently, the CO sent an
    RFQ to two additional contractors, but did not grant them additional time to
    respond and did not modify the terms of that RFQ as the CO had done for the first
    contractor. Because the three contractors were not all responding to the same
    RFQ and within the same timeframes, the CO was not able to fairly evaluate the
    responses for a best value selection.

•   In the fourth case at Marshall involving another request for automatic data
    processing and telecommunications services, the RFQ did not include the




                                         9
         evaluation criteria25 to be used for selecting the contractor as required by the
         Ordering Procedures for Services.

NASA CO’s at Ames, Goddard, and Marshall were not familiar with the GSA Ordering
Procedures for Services that require CO’s to request quotations from at least three
vendors and to provide those vendors with the criteria that NASA CO’s will use in
evaluating the quotations. Three CO’s at Goddard and three CO’s at Ames stated that
they were not aware of the GSA Ordering Procedures for Services.

Effects on NASA

Because CO’s did not offer multiple contractors the opportunity to provide quotations for
needed services and did not provide the required details in the RFQ or SOW, NASA had
reduced assurance that it received the best value for acquisition of services using the FSS.
Further, without giving multiple contractors an equal opportunity to respond and not
advising contractors of the evaluation criteria, NASA had little assurance that related
quotations addressed the same evaluation criteria.

As discussed in Finding A, previous studies and historical data have shown that cost
savings from 10 to 60 percent and time savings of more than 80 percent are obtainable
through the use of the FSS. The CO’s proper use of the GSA Ordering Procedures for
Services will help ensure that acquisitions of services using the FSS are timely and result
in obtaining the best value for NASA.




25
  The evaluation criteria describe the basis that NASA will use in selecting the contractor to receive the order.
The criteria shall include the basis for determining whether the contractors are technically qualified and provide
an explanation regarding the intended use of any experience and/or past performance information in determining
the technical qualification of the contractors’ responses.


                                                        10
Recommendation, Management’s Response, and Evaluation of
Response

3. The Assistant Administrator for Procurement should issue a PIC directing
   NASA CO’s to follow the terms of the GSA Ordering Procedures for Services
   when ordering services through the FSS.

Management’s Response. Concur. The Office of Procurement agreed to issue the PIC
by June 30, 2002.

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                       11
                    Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to determine whether NASA had effectively used the Federal
Supply Schedules (FSS) for acquiring services, as described in the Federal Acquisition
Regulation (FAR) Part 8.26 Specifically, we determined whether:

       •    NASA’s procurement practices adequately considered acquisitions of services
            from the FSS as required by FAR Part 8 and
       •    the Agency achieved maximum benefits by acquiring services from the required
            sources.

Scope and Methodology

We reviewed applicable regulations, policies, and documentation from NASA and other
Government agencies.

During the audit, we did the following:

•      Researched the FAR, the NASA FAR Supplement, guidance from the Office of
       Federal Procurement Policy and the General Services Administration (GSA), and the
       FSS for criteria related to the acquisition of services through the FSS.
•      Obtained current procurement information from NASA Headquarters to establish the
       number of service acquisitions by each Center for the period October 1, 1999,
       through February 28, 2001, and the number of acquisitions obtained through the FSS.
•      Randomly selected service acquisitions made by Ames Research Center (Ames),
       Goddard Space Flight Center (Goddard), Johnson Space Center (Johnson), Langley
       Research Center (Langley), and Marshall Space Flight Center (Marshall) for a more
       detailed evaluation and discussion with the respective CO’s.
•      Discussed service acquisition criteria and procedures with GSA officials.
•      Discussed specific acquisitions with Small Business Administration officials and with
       officials of the Wallops Flight Facility who have successfully used the FSS to acquire
       services.

Management Controls Reviewed

We reviewed management controls over the acquisition of services using the FSS,
including:




26
     FAR Part 8 provides guidance for the acquisition of services from or through Government supply sources.


                                                         12
                                                                          Appendix A

   •   FAR Part 8, “Required Sources of Supplies and Services”

   •   NASA FAR Supplement Part 1808, “Required Sources of Supplies and Services”

   •   FAR Part 38, “Federal Supply Schedule Contracting”

   •   Office of Federal Procurement Policy, “Best Practices for Multiple Award Task
       and Delivery Order Contracting,” July 1997

   •   General Services Administration “Ordering Procedures for Services (Requiring a
       Statement of Work),” September 2000

Audit Field Work

We conducted audit field work from April through December 2001 at NASA
Headquarters, Ames, Goddard, Johnson, Langley, and Marshall. We performed the audit
in accordance with generally accepted government auditing standards.




                                          13
    Appendix B. Service Contracts Acquired Outside the FSS


[Withheld per FOIA exemption 5, 5 U.S.C. §552 (b)(5).]




                                      14
    Appendix C. Service Contracts Acquired Through the FSS

[Withheld per FOIA exemption 5, 5 U.S.C. §552 (b)(5).]




                                      15
Appendix D. Management’s Response




               16
     Appendix D




16
Appendix D




             17
                      Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Acting Director, Lyndon B. Johnson Space Center
Director, Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Acting Director, Stennis Space Center
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space
Director, Defense Contract Management Agency
Director, Defense Contract Audit Agency


Appendix E


                                         19
Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         20
               NASA Assistant Inspector General for Auditing
                              Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Auditing; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: NASA Acquisition of Services using the Federal Supply Schedules

Report Number:                                Report Date:


Circle the appropriate rating for the following statements.
                                              Strongly                                Strongly
                                                         Agree   Neutral   Disagree              N/A
                                               Agree                                  Disagree
1. The report was clear, readable, and            5       4        3           2          1      N/A

   logically organized.
2. The report was concise and to the point.      5        4        3           2         1       N/A

3. We effectively communicated the audit         5        4        3           2         1       N/A

   objectives, scope, and methodology.
4. The report contained sufficient               5        4        3           2         1       N/A

   information to support the finding(s) in
   a balanced and objective manner.

Overall, how would you rate the report?

#   EXCELLENT      #    FAIR
#   VERY GOOD      #    POOR
#   GOOD

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: __________                             No: __________

Name: ___________________________

Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement Audits

Tony A. Lawson, Program Manager

Walter K. Curtis, Auditor-in-Charge

Amy L. Larkin, Auditor

Stephen K. Siu, Auditor

Nancy C. Cipolla, Report Process Manager

Debra A. Schuerger, Program Assistant
